ASSESSMENT OF THE COMMUNITY 

 EXPRESS PILOT LOAN PROGRAM 


        Report Number: 10-12 

     Date Issued: August 25, 2010 





               Prepared by the 

         Office of Inspector General 

    U. S. Small Business Administration 

             u.s. Small Business Administration
             Office Inspector General


                                                          Memorandum
     To: 	   Eric R. Zamikow, Associate Administrator                  Date:   August 25,2010
             Office of Capital Access

             Grady Hedgespeth, Director 

             Office of Financial Assistance 

             lsi Original Signed 

  From:      Debra S. Ritt 

             Assistant Inspector General for Auditing 


Subject: 	   Report on the Assessment of the Community Express Pilot Loan Program
             Report No. 10-12

             This report presents the results of our assessment of SBA's Community Express
             pilot loan program. The program was designed to increase SBA lending to pre­
             designated geographic areas and to New Market borrowers (i.e., women,
             minorities, and veterans). SBA, aware that the program's historical credit
             performance had generally been worse than that experienced by other SBA loan
             programs, requested that the Office of Inspector General determine whether the
             program is properly structured to ensure success and to minimize the risk of fraud,
             waste, and abuse. We were also asked to consider the effectiveness of recent
             program changes.

             To respond to the request, we determined whether: (1) the Community Express
             program has increased the number and dollar amount of loans provided to select
             New Market groups, while keeping credit risk at an acceptable level; (2) small
             businesses receiving Community Express loans benefited from lower interest rates
             and fees than that of other SBA loan programs, and if lenders adequately justified
             their fees; (3) technical assistance was provided by lenders to increase the
             potential success for Community Express borrowers; and (4) the most appropriate
             measures have been established by which to evaluate program success.

             To assess program results, we compared the volume, dollar value, geographic
             distribution, and other characteristics of Community Express loans to that of other
             7(a) loans of $250,000 or less that were approved between May 1, 1999 and
                                                                                      2


 June 30, 2009. We also interviewed six lenders who had either stopped or
reduced their participation in the Community Express program, and discussed
lender participation rates with SBA and the National Association of Government
Guaranteed Lenders.

To evaluate the risk of the program, we compared the 12-month Community
Express purchase and charge-off rates reported for October 2004 to June 2009 to
that of the other 7(a) programs. We also compared the 12-month purchase and
charge-off rates for the two most active Community Express lenders, who were
responsible for 71 percent of the loan volume (and 33 percent of the dollars
loaned), to the rates charged to SBA's 7(a) portfolio averages. We determined
whether the rates were uniformly high for all Community Express lenders. We
also reviewed lender loan files and interviewed lender personnel to determine if
lender underwriting practices increased credit risk. Further, we obtained
information on the overall subsidy rates and the net cash flow for the Community
Express program and other 7(a) programs.

To evaluate interest rates, we compared the average interest rates that each of the
11 most active lenders charged for their Community Express loans to the rates
they charged for their other 7(a) loans. We also compared lender information on
loan packaging fees for the Community Express program to the fees they charged
for other 7(a) and non-SBA loans, which was available for only 7 of the 11
lenders.

To determine whether borrowers received technical assistance, we reviewed a
sample of 99 loans that were disbursed between February 2005 and December
2008, and a sample of 31 loans disbursed from October 2008 (when program
changes went into effect) to June 2009. We reviewed the loans for evidence that
the technical assistance requirements were met. To corroborate data in the loan
files, we interviewed 63 of the 130 borrowers we were able to reach, and 59 of 70
technical assistance providers. Our audit scope and methodology is further
detailed in Appendix I, and a listing of the sampled loans is provided in Appendix
II.

Finally, to determine whether SBA established the most appropriate performance
measures for the program, we interviewed Office of Capital Access (OCA)
personnel, and reviewed the FY 2008 and 2009 Federal Government Performance
Reports. We conducted the audit between January 2009 and March 2010 in
accordance with Government Auditing Standards prescribed by the Comptroller
General of the United States.
                                                                                      3


BACKGROUND

The Community Express pilot program is a delivery method within SBA's 7(a)
loan program, and was established in May 1999 to address the difficulty that New
Market small business owners had in accessing capital from traditional lending
markets. While SBA has not issued Community Express regulations, the policies
and procedures for this program are outlined in several procedural notices and an
August 2000 Community Express Program Guide, which have been incorporated
into Standard Operating Procedure (SOP) 50 10 5(A), Lender and Development
Company Loan Programs. The program generally conforms to the policies and
procedures of the SBA Express loan program.

As discussed in program guidance, a major objective of the Community Express
program is to combine technical and financial assistance to maximize the success
potential of New Market small businesses. Technical assistance, which is to be
provided by private concerns and SBA's partners, includes an assessment of
borrowers' business weaknesses, the identification of training or counseling to
address the weaknesses, and follow-up by the lender to encourage borrowers to
complete the training. To offset some of the cost of the technical assistance, SBA
provided a guaranty on Community Express loans that is similar to 7(a) loans-up
to 75 percent for loans over $150,000 and up to 85 percent for loans of$150,000
or less. l

SBA Procedural Notice 5000-1068, Extended and Enhanced Community Express
Pilot Program, was subsequently incorporated into SOP 50 10 5(A) and made
major revisions to the Community Express program, which became effective in
October 2008, These revisions included targeting pre-designated geographical
areas in lieu of New Market groups; opening eligibility to all applicants for loans
of $25,000 or less; allowing lenders to use SBA's on-line training for technical
assistance; requiring that technical assistance be completed prior to disbursing
loans of $25,000 or less; and requiring that additional courses be completed for
loans disbursed over $25,000.

The OIG issued two prior reports addressing the Community Express program,
and a memorandum addressing          [FOrA ex. 4]  one of the most active
Community Express lenders. Management Advisory Report 6-34, Policies and
Procedures for the SEA Express and Community Express Loan Programs, issued
in September 2006, disclosed that the Community Express Loan Program Guide
had not been officially cleared or issued by SBA, and that guidance on credit
analysis and scoring was vague. We recommended that SBA promulgate
regulations to govern the program, establish criteria for when lenders would be

1   The SBA Express Program limits SBA's guaranty to a maximum of 50 percent.
                                                                                     4


permitted to use credit scoring, identify the range of credit scores considered
acceptable by SBA, and revise its guide to identify acceptable credit analysis
methods. As of March 31,2009, SBA had taken action on some, but not all, of the
recommendations.

Audit Report 7-08, The SEA Express and Community Express Loan Purchase and
Liquidation Process, issued in December 2006, disclosed that SBA erroneously
paid additional guaranties on 43 loans that were ineligible because lenders
provided no evidence that borrowers received the required technical assistance.
We recommended that SBA obtain evidence that technical assistance was
provided to borrowers or seek recovery for those portions of SBA guaranties in
excess of 50 percent. Since the report was issued, SBA has taken action to
implement the recommendation.

RESULTS IN BRIEF

While the Community Express program was established to increase loans to New
Market groups, only 12 percent of the growth in loans to these groups between
fiscal years (FY) 2000 and 2008 can be attributed to the program. Further,
Community Express loan volumes have fallen short of annual limits established
for 7(a) pilot programs as the program has not been able to attract a sufficient
number of new lenders or retain existing ones. As of June 30, 2009, two lenders
were responsible for 71 percent of the loans and 33 percent of the dollars
disbursed under the program. The most active of the two lenders was placed in
receivership and, on April 16, 2010, sold to another bank, raising questions about
the future viability of the program. Lenders we interviewed who left the program
were discouraged by the greater risk associated with Community Express loans
and the program's technical assistance requirements.

Despite the lower loan volumes, SBA believes the Community Express program
has helped reach borrowers that are not served by other 7(a) programs, particularly
borrowers seeking smaller loans ($25,000 or less), start-up businesses, or
borrowers located in geographical areas not served by SBA's other loan programs.
However, the other 7(a) loan programs have historically made a significantly
higher percentage of smaller loans to New Market groups and start-up businesses
than the Community Express program and served the vast majority of the
geographical areas serviced by the Community Express program. SBA also
believes that Community Express loans are now in greater demand and will
become the primary vehicle for reaching new market groups as loan volumes in
the SBA Express program, which provided the bulk of loans to new markets, have
been declining.
                                                                                     5


Although SBA anticipated that the Community Express program would assume a
high level of credit risk, loan purchases and charge-offs have far exceeded that of
other 7(a) loan programs, making it costlier than all other 7(a) programs. As of
June 30, 2009, the program had a negative cumulative net cash flow of
$102.4 million, and was expected to increase the subsidy rate for the 7(a) program.
According to SBA's projections, the Community Express subsidy rates will cause
a .12 percent increase in the overall 7(a) subsidy rate in FY 2010 and a .19 percent
increase in the 7(a) subsidy rate for FY 2011.

While many Community Express lenders have contributed to the program's high
purchase and charge-off rates, the two most active lenders,    [FOIA ex. 4, 8]
           employed credit scoring practices that may have contributed to loan
defaults that have increased the cost of the program. Based on credit scores, the
lenders reduced loan amounts by as much as 80 percent, without regard to how the
reductions would affect the borrower's business plans, intended use of proceeds,
and projected cash flows. One of the lenders used a business credit-scoring model
for assessing borrower repayment ability even though it did not meet SBA
requirements for using credit scoring. Consequently, we believe 44 percent of the
loans may have defaulted due to the lenders' credit scoring practices.

Community Express loan recipients generally were charged higher interest rates
by the more active lenders and lower interest rates by the less active lenders. We
noted that the two most active Community Express lenders, who were responsible
for 71 percent of the loans made under the program, focused on making loans of
$25,000 or less. Making these smaller loans allowed them to charge interest rates
that were at or near the limit permitted by SBA. Less active lenders tended to
provide lower interest rates and to make larger loans. Additionally, loan­
packaging fees charged for Community Express loans were in line with those the
lenders generally charged for other 7(a) loans, but lenders we contacted were
unable to justify the basis for their fees.

Finally, while a higher percentage of businesses received technical assistance
since SBA made it a requirement for loan disbursement in October 2008, the
amount and type of technical assistance provided did not always match borrower
needs. On average, borrowers with the least experience were assessed as needing
less assistance than those borrowers with greater experience. Where technical
assistance was provided on-line or by SBA partners, lenders continued to be
compensated with a higher guaranty percentage even though there was no cost
associated with the on-line training and services provided by SBA partners.

In January 2010, SBA extended the Community Express pilot through December
2010 without assessing the pilot's success or the cost/benefits of the program. In
addition, although the Community Express program has been a pilot since 1999,
                                                                                        6


SBA did not establish measurable goals and outcomes for evaluating the program
until FY 2008 and has yet to assess the program's effectiveness. We believe that it
is not reasonable to continue a program that is heavily reliant on one high-risk
lender for most of the loan activity, and whose costs have had a significant impact
on the 7(a) program subsidy rate. We understand that SBA is interested in
maintaining the Community Express program as a vehicle for reaching new
market groups because the SBA Express program, which has contributed the most
to this market, has experienced significant declines in loan volumes. However, we
believe that SBA would be better served by focusing its efforts on how to make
the SBA Express program work instead of making the Community Express
program permanent.

We recommended, therefore, that SBA not extend the Community Express
program in its current form when it expires in December 2010 and re-evaluate the
need for the program. If SBA retains the program, we recommended that it take
steps to increase lender participation; reduce program risk; reconsider how
program costs should be financed; clarify the appropriate uses of credit scoring;
improve the type and quality of technical assistance provided to borrowers; and
establish criteria for assessing borrower technical assistance needs and for
measuring the program's success. We also recommended that SBA revise its
program procedures to limit its guaranty to 50 percent on loans where technical
assistance is provided by SBA partners or SBA's online training; and that it repair
$18,960 in guaranties on 4 loans it purchased above the 50-percent guaranty level.
Finally, we recommended that SBA annotate 30 loan files for a potential repair of
$268,190 should the loans default.

Management concurred with two recommendations (recommendations 3 and 4),
and agreed to act swiftly to address the remaining ten recommendations related to
terminating or changing the program, which would require more careful
consideration. The OIG considers the Agency's actions to be responsive to the
report, and agrees that careful deliberation of the audit results is needed to ensure
that the needs of the underserved markets are addressed in the most prudent and
cost effective manner.

RESULTS
The Community Express Program Has Not Been as Effective as Other 7(a)
Programs in Increasing Loans to New Market Groups

While intended to increase loans to New Market groups, between FY s 2000 and
2008, Community Express loans comprised only 12 percent of the growth in
overall loan volume and 6 percent of loan dollars disbursed to New Market
groups. In comparison, other 7(a) programs made 88 percent of the loan growth
                                                                                  7


and 94 percent of the dollars disbursed to New Market groups, primarily the SBA
Express program, as shown in Figures I and 2. Data supporting Figures I and 2
are provided in Appendix III.
               Figure 1. Percentage of New Market Loans by 7(a) Program
                                from FY 2000 to FY 2008




             Figure 2. Percentage of Dollars Disbursed to New Market Groups
                        by Loan Program from FY 2000 to FY 2008




As illustrated in Figures 3 and 4, the SBA Express program has been responsible
for the majority of annual increases in loans to New Market groups, while the
Community Express program has contributed the least of all of the 7(a) programs
to the growth in New Market loans. While the Community Express
program reached its highest New Market loan volume in FY 2007, this level was
only 17 percent of the New Market loans approved that year. The SBA Express
program and the Other 7(a) Delivery Methods collectively produced more New
                                                                                           8


Market loans annually with the exception of FY 2008.             Data Supporting Figures
3 and 4 are provided in Appendix III.
                         Figure 3. New Market Loan Volumes by SBA Program
                                       from FY 2000 to FY 2008




                                                                   -+-SBAEXP

                                                                   -Other7A
                                                                      Methods



                                       ~ S)~ S)IO ~ S)'b
                                      ~ ~ ~ ~ ~

                                   Fiscal Yea.!'



                       Figure 4. Loan Amounts Disbursed to New Market Groups
                                       from FY 2000 to FY 2008




  ource:   u Itor computatIOn



Although the Community Express program has historically comprised a relatively
small percentage of the loans disbursed to New Market groups, in FY 2008 the
Community Express share of loans to New Market groups increased to 22 percent.
This increase in market share; however, was not due to a higher volume of
Community Express loans, but instead attributable to a decrease in the overall
                                                                                                                           9


volume of SBA 7(a) loan resulting from the economic downturn. Economic
conditions led to a decline in lending in FY 2008, most notably in the SBA
Express program, which had generated the largest percentage of loans to New
Market groups.

Further, with one exception, Community Express loan volumes never approached
annual loan limits for 7(a) pilot programs. By statute, the percentage ofloans that
can be made under a 7(a) pilot program is limited to not more than 10 percent of
the total number of 7(a) loans guaranteed in any fiscal year. As shown in Table I
below, a comparison of program loan levels to that of the annual loan limits
disclosed that the volume of loans during the first 7 years of the program fell
significantly below maximum loan limits. However, in FY 2008, as a result of a
significant reduction in loan production for all 7(a) loan programs, the annual loan
limit was significantly reduced; closing the gap between the annual loan limit and
Community Express loan volumes that year.

                    Table 1. Comparison of 7(a) and Community Express Loan Approvals 

                                        From FY 2000 to FY 20092 


                                                                                                        Number of
                                     7(a) Loan           Statutory        Community Express            Loans Below
            Fiscal Year              Approvals             Limit           Loan Approvals             or Above Limit
               2000                    43,748              4,375                  130                     (4,245)
               2001                    42,951              4,295                  325                     (3,970)
               2002                    46,852              4,685                  686                     (3,999)
               2003                    63,936              6,394                2,575                     (3,819)
               2004                    81,132              8,113                4,125                     (3,988)
               2005                    95,900              9,590                6,210                     (3,380)
               2006                    97,290              9,729                6,667                     (3,062)
               2007                    99,603              9,960                8,440                     (1,520)
               2008                    69,441              6,944                7,046                        102
               2009'                   44,223              4,422                2,070                     (2,352)
      Source: Auditor computatIOn ased on data extracted trom SHA's Loan Accountmg System and SBA budget data.



Additionally, in FY 2009, SBA limited the number of Community Express loans
that each lender could make monthly in order to comply with the statutory limit.
This had the effect of curtailing the loan volumes of all lenders, and may have
further discouraged new lenders from participating in the program.




2	   Unlike loan approval data supporting the other figures in the report, loan approvals presented in the table include
     conunitted, cancelled, and disbursed loans.
3	   Data is for the first 9 months ofFY 2009.
                                                                                  10


The Community Express Program's Loan Volume Was Impacted by the Lack of
Lender Participation and Competing Programs

The Community Express program has suffered from a lack of lender participation.
Only 275, or 6 percent, of the more than 4,438 lenders authorized to make 7(a)
loans participated in the Community Express program from its inception through
June 30, 2009. Of the 275 participants, two lenders were responsible for more
than 71 percent of the loans and 33 percent of the dollars disbursed as of June 30,
2009. Lender participation was higher in the SBA Express program, which
offered lenders the ability to make larger loans and charge higher interest rates
than the Community Express program, while still using an expedited lending
process. As of June 30, 2009, 1,957, or 44 percent of all 7(a) lenders participated
in the SBA Express program even though it offered a 50-percent guaranty as
opposed to the 75-percent or 85-percent guaranty offered by the Community
Express program. SBA Express lenders are also not required to provide technical
assistance, which is an additional expense that Community Express lenders must
bear if they do not use SBA partners or SBA on-line training.

To determine why lender participation had declined, we interviewed six lenders
who stopped making Community Express loans, which revealed that:

   • 	 Two lenders did not have sufficient borrower demand for Community
       Express loans;

   • 	 Two were uncomfortable with the technical assistance follow-up
       requirement, especially the repercussions if the follow-up was not done or
       was improperly done;

   • 	 One believed the process involved too much paperwork without assurance
       of loan approval; and

   • 	 One lender preferred to make SBA Express loans because it believed they
       were less risky than Community Express loans.

Due to limited lender participation in the Community Express program, effective
October 1, 2008, SBA made program changes to attract new lenders, including
contacting many of the small volume lenders to discuss future plans for their use
of the program. As of June 30, 2009, 24 new lenders joined the program, who
collectively originated 47 loans. While this is a large increase in lenders for the
Community Express program, it is a relatively small number compared to the
4,438 lenders participating in other 7(a) programs.
                                                                                                                 11


Further, the most active lender in the program was put into receivership by the
Federal Deposit Insurance Corporation and, on April 16, 2010, sold to another
bank. This occurrence will adversely impact the volume of loans made under the
program as the new lender has stated it will not participate in the program due to
the higher default risk and the greater servicing requirement. Unless SBA
succeeds in growing lender participation, the viability of the program is doubtful.
Because SBA has not been able to attract a significant number of other lenders, it
may want to consider combining the Community Express program with other
programs that service the same market groups.

The Community Express Program Provides Loans to Smaller Borrowers and
in Geographical Areas Served by Other 7(a) Programs

SBA officials believe that while fewer New Market loans are made under the
Community Express program than that of other 7(a) programs, the Community
Express program has helped reach borrowers that are not served by other 7(a) loan
programs. For example, SBA officials have reported that the program helps meet
the needs of borrowers seeking smaller loans ($25,000 or less). As shown in
Table 2, the vast majority of Community Express loans made between FY 2000
and FY 2008 were $25,000 or less. However, other 7(a) programs made a
significantly greater percentage of New Market loans in this size category than the
Community Express program.

                               Table 2. Size of New Market Loans Approved
                                      from October 2000 to June 2009

                              Number of              Percent of all                             Percent of all
                              Community              NewMarket                  Number of       NewMarket
   Loan Amounts              Express Loans              Loans                   7(a) Loans         Loans
 $25,000 or less                     28,708                       10                   56,374               19
 $25,001 to $50,000                   3,715                         1                  62,470               22
 $50,001 to $150,000                  2,485                         1                 102,534               35
 $150,001 to $250,000                   897                         0                  33,400               12
    Totals                           35,805                       12                  254,778               88
Source: AudItor computatIOn based on data trom   :s I::lAs Loan Accountmg   System.



Further, SBA officials believe that one group served predominantly by the
Community Express program is start-up small businesses. However while
42.5 percent of Community Express loans made since the start of the program in
October 1999 to June 2009 went to start-up New Market businesses, these loans
comprised only 5.2 percent of all New Market 7(a) loans made to start-up
businesses during the same period. This would indicate that other 7(a) loan
programs are predominantly meeting the needs of start-up New Market borrowers,
and that the Community Express program is not significantly contributing to the
financing of start-up business concerns.
                                                                                                                       12



We also examined the geographical areas served by the Community Express and
other 7(a) loan programs between FY 2000 and June 2009. Our analysis showed
that other 7(a) programs were largely serving the same areas that were serviced by
the Community Express program. Specifically, the other 7(a) loan programs made
loans to businesses in the same zip codes as that of Community Express program
93 percent of the time. Only 634 of the 8,666 zip code areas serviced by the
Community Express program were not reached by other 7(a) programs.

Finally, SBA believes the Community Express program is particularly in demand
now that SBA Express loan volumes have significantly declined since 2007. In
2007 SBA Express represented 66 percent of the total 7(a) loan approvals. This
declined to about 43 percent under the Recovery Act due to a number of large
lenders reducing or discontinuing their participation. Since the SBA Express
program made the largest percentage of loans to New Market groups of all the 7(a)
programs, the volume of loans to this market has significantly decreased in the
past couple of years. Therefore, SBA believes that the Community Express
program is needed more today than ever. However, we believe that since both the
Community Express and SBA Express programs have lender participation issues,
SBA would be better served by addressing the reasons for the decline in the SBA
Express program, which is a permanent program and less risky than the
Community Express program.

The High Cost of the Community Express Program Is Expected to
Significantly Increase the 7(a) Subsidy Rate in FYs 2010 and 2011

When SBA initiated the Community Express pilot in 1999, it believed that the
program would experience higher costs due to the smaller size of the loans and the
target market. Although this was the expectation at the outset, we found the cost
of the program to be significantly higher than SBA may have anticipated or would
have considered cost effective. Historically, the Community Express program has
had a high level of credit risk, as evidenced by the program's purchase rates. As
shown in Figure 5, the Community Express 12-month purchase rates increased
from about 3.4 percent in October 2004, to about 11 percent in June 2009.
Additionally, the 12-month purchase rate 4 for the Community Express program
significantly exceeded that of all other 7(a) loan programs.




4   A purchase occurs when SBA has honored the guaranty on a defaulted loan. The 12-month purchase rate is
    computed by dividing total gross purchases during the past l2-months by the total value of the outstanding loan
    portfolio, plus total gross purchases during the past l2-months. The 12-month charge-off rate is computed by
    dividing total gross dollars charged-off during the past 12 months by the total gross outstanding plus gross dollars
    charged-off during the past 12 months.
                                                                                13


                         Figure 5. 12-Month Purchase Rates by Loan Program
                                   from October 2004 to June 2009




 Source: SBA's LoallAccounting System.



Further, as shown in Figure 6, the program's 12-month charge-off rates, which
represent losses incurred by SBA after loan defaults and collateral liquidation,
increased from about 1.77 percent in June 2004 to almost 8 percent in June 2009,
and consistently exceeded the charge-off rates for all other loan programs during
that period. As of June 30, 2009, SBA had charged off a total of $68.3 million in
Community Express loans. Data supporting Figures 5 and 6 are provided in
Appendix IV.
                       Figure 6. 12-Month Charge-Off Rates by Loan Program
                                  from October 2004 to June 2009
                                                                                                                      14



We compared the 12-month purchase rates of the two most active lenders with that
of the other Community Express lenders, and found that the rates were uniformly
high among lenders. For example, as of June 30, 2009, the 12-month purchase
rates for the two most active lenders were 7.5 percent and 7.7 percent, or about 2
percent to 2.2 percent above the 7(a) portfolio average. For all other Community
Express lenders, the rate averaged 8.02 percent-or 2.5 percent above the 7(a)
portfolio average. Further, as June 30, 2009, the 12-month charge-off rate for one
of the lenders was 6.1 percent, or about 3.2 percent higher than the 7(a) portfolio
average-while the other lender's rate was 1.7 percent, or below the portfolio
average. For all other Community Express lenders, the 12-month charge off rate
averaged 4.8 percent-or 1.9 percent above the 7(a) portfolio average.

As a result of the high purchase and charge-off rates, as of June 30, 2009, the
Community Express program had a negative cumulative net cash flow of
$102.4 million and a negative cash yield of 12.57 percent. The cumulative cash
flow is determined by subtracting all program cash outlays, such as payments to
honor guaranties for defaulted loans, from program revenue, such as lender fees
and liquidation recoveries. The net cash yield is computed by dividing the
cumulative net cash flow by the cumulative guaranteed SBA disbursed amount.
No other 7(a) loan program had as high a negative net cash yield as the
Community Express program. For example, as of June 30, 2009, the cumulative
net cash yield for other programs ranged from a positive 1.6 percent for Rural
Express loans to a negative 9.3 percent for regular 7(a) loans.

This negative cash flow will significantly impact the FY 2010 and 2011 subsidy
rates for Community Express loans of $25,000 or less, which are projected to be
11.63 and 23.78, respectively. This is significant when compared to the expected
FY 2010 and 2011 subsidy rates for similar-sized loans made by all other 7(a)
programs, which are projected to be 3.80 and 5.23, respectively.

Moreover, the high subsidy rate of the Community Express program, which is
largely comprised of smaller loans, is projected to significantly increase the 7(a)
subsidy rates for FY 2010 and 2011. Generally, the 7(a) subsidy rate is heavily
influenced by larger loans, which have historically performed better, keeping the
overall subsidy rateS relatively low. However, as presented in Table 3, the
Community Express program will cause a .12 percent increase in the overall 7(a)
program subsidy rate in FY 2010, which equates to an increase of about $21.8
million that must be borne by 7(a) lenders and borrowers. A similar comparison
for FY 2011 shows that the Community Express program will increase the overall


5 	 Federal
        loan programs, such as the 7(a) loan program, have either a positive subsidy rate (i.e., incurs cost to the
  Govermnent) or a negative subsidy rate (i.e., makes a profit) before administrative costs are considered.
                                                                                                        15


7(a) subsidy rate by .19 percent or by about $31.2 million. The subsidy rate
increases represent funds that could be put to better use should SBA terminate the
Community Express program.
                    Table 3. Community Express Program Impact on Subsidy Rates

                     Community              Subsidy Rate for       Overall 7(a) Subsidy      Percentage
                   Express Subsidy           All Other 7(a)          Rate (including       Increase in the
 Fiscal Year            Rate                     Loan              Community Express)     7(a) Subsidy Rate
  2010                   9.80                     0.34                     0.46                  0.12
 2011                   20.43                     0.55                     0.74                  0.19
Source: Uata provided by Sl::lA's Utllce otChlet Fmancmi Utticer



SBA will need to determine whether the higher costs associated with the program
are reasonable given that other loan programs are largely serving the intended
market. Additionally, SBA will need to determine whether the all 7(a) lenders
should continue to absorb the higher costs associated with the Community Express
program, or whether the higher costs should be financed through other means,
such as increased fees or interest rates charged the borrowers.

Credit Scoring Practices of the Two Most Active Community Express
Lenders Have Increased Program Risk

While many Community Express lenders have contributed to the program's high
purchase and charge-off rates, the credit practices of the two most active
Community Express lenders may have contributed to loan defaults that have
increased the cost of the program. [FOIA ex. 4, 8]

                                                          In addition, one of the
lenders was cited in a Cease and Desist Order from the Federal Deposit Insurance
Corporation in Calendar Year 2007 as engaging in unsatisfactory lending and
collection practices. This lender received two subsequent Cease and Desist Orders
in May 2009 and March 2010, and in April 2010 was closed by its state regulator
and sold by FDIC.

According to SOP 50 10 5, lenders participating in pilot loan programs are
required to use appropriate, prudent, and generally accepted industry credit
analysis processes, which may include a business credit scoring model as long as
the lender is using the model for similarly-sized non-SBA guaranteed commercial
loans. This credit analysis process is intended to help lenders determine whether
there is a reasonable expectation that the borrower will repay the SBA loan in a
timely manner.

Although credit scoring is allowed for assessing applicant repayment ability, the
two most active Community Express lenders also used the credit scoring process
                                                                                                              16


to determine the size of loans they would approve for individual borrowers-an
application that SBA may not have originally envisioned. In our first two samples
of 99 loans, 76 were subjected to loan size determinations based on credit scoring.
Of these, 54 were approved for lesser amounts than originally requested. The
reductions ranged from 20 percent to 80 percent of the original loan requests. As
shown in Table 4, 24 of the 54 loans, or 44 percent, had defaulted as of June 30,
2009. This default rate is relatively high when compared to the default rate for the
remaining 22 loans that lenders approved for the original amounts requested.
Only 2, or 9 percent, of the 22 loans that were not reduced defaulted.

                              Table 4. Loan Reductions Made by the 

                          Two Most Active Lenders that Resulted in Defaults 


                                                                 Percent
            Loan         Amount                 Amount         Reduction in          Age of Loan
            Number      Requested              Approved         Loan Size            Upon Default
                         $35,000                $ 5,000           85.7                19 months
                         $15,000                 $ 5,000          66.7                16 months
                         $15,000                $ 5,000           66.7                22 months
                         $15,000                $ 5,000           66.7                35 months
                         $15,000                $ 5,000           66.7                35 months
                         $15,000                $ 5,000           66.7                55 months
                         $15,000                $ 5,000           66.7                68 months
                         $50,000                $20,000           60.0                13 months
                         $25,000                $10,000           60.0                13 months
                         $12,500                $ 5,000           60.0                14 months
           [FOIA ex. 4]
                         $50,000                $20,000           60.0                22 months
                         $25,000                $12,500           50.0                10 months
                         $25,000                $12,500           50.0                12 months
                         $25,000                $12,000           52.0                16 months
                         $10,000                $ 5,000           50.0                31 months
                         $17,000                $10,000           41.2                 5 months
                         $15,000                $10,000           33.3                13 months
                         $15,000                $10,000           33.3                30 months
                         $15,000                $10,000           33.3                39 months
                         $15,000                $10,000           33.3                41 months
                         $15,000                $10,000           33.3                46 months
                         $15,000                $10,000           33.3                60 months
                         $50,000                $35,000           30.0                21 months
                         $20,000                $15,000           25.0                42 months
           ource: Uata trom ender loan tiles, SI::lA' s Loan Accountm g S'ystem, and auditor com p utations



By using credit scoring to determine loan size, lenders did not consider how the
reduced loan amounts would affect the small business concerns' cash flow and
intended use of loan proceeds needed to succeed. Borrowers requested loan
amounts based on business plans, which included financial analyses showing how
they would use the loan proceeds. However, in lieu of analyzing the business
plans, lenders assigned credit scores to loans based primarily on factors relating to
                                                                                  17


the business principal's personal creditworthiness. The higher the numeric score,
the larger the loan amount the borrower could receive. We believe that reducing
loan amounts without consideration of these factors increased credit risk because
borrowers either had to find alternative sources of capital or modify their business
plans, which, in some cases negatively impacted their chances for success. For
example:

   • 	 In September 2007, a borrower requested a $12,500 loan for rent payments
       and inventory purchases for a start-up specialty market, but was approved
       for only $5,000. The loan defaulted within 24 months of the disbursement
       date. According to the borrower, the reduced loan proceeds prevented the
       purchase of sufficient inventory and caused him to become delinquent on
       the rent.

   • 	 In December 2007, a borrower requested a $35,000 loan for a start-up video
       production company to purchase equipment, materials, and for working
       capital. However, the borrower was approved for a $15,000 loan, which
       was transferred into liquidation status in June 2009. According to the
       borrower, the reduced loan prevented her from obtaining a technical
       consultant and developing the business website.

   • 	 In April 2008, a borrower requested a $17,000 loan to buy equipment for a
       long-haul trucking firm. The borrower was approved for $10,000 and
       accepted the loan because he thought he could obtain additional capital
       from another source. The loan defaulted in September 2008. The borrower
       believed that the reduction prevented him from acquiring all the needed
       equipment.
SBA officials told us that reducing the loan size provided borrowers with
opportunities to obtain capital that otherwise would not have been available at a
reduced risk exposure level to SBA and the lenders. Therefore, if the loans
defaulted, the associated losses would be nominal. While this may be true, SBA
regulations require that in making loan decisions, consideration is given to the
borrower's repayment ability and the business' potential for long-term success.
Specifically, 13 CFR 120.150 requires that loans be of such sound value as to
reasonably assure repayment. In detelmining repayment ability, lenders are to
consider the borrower's ability to repay the loan with earnings from the business
and the potential for the firm's longer-term success. However, because in many
instances the loans were for specific business equipment that could not be
purchased with the reduced loan amounts, the smaller loans reduced the likelihood
that the businesses would succeed. Additionally, the loan defaults, regardless of
size, can actually harm the borrower's credit rating and ability to acquire further
capital.
                                                                                   18


Additionally, one of the lenders, who was a Small Business Lending Company
(SBLC) and is currently one of the most active Community Express lenders, used
a business credit-scoring model for assessing borrower repayment ability, even
though it did not meet SBA's requirements for using credit scoring. SOP 50 10 5
allows lenders to use business credit scoring models only if they are using the
models for similarly-sized non-SBA guaranteed commercial loans. Further, it
explicitly prohibits lenders that do not use credit scoring for their similarly sized
non-SBA loans from credit scoring SBA loans. SBA's procedure is intended to
provide assurance that lenders are applying generally accepted industry credit
analysis processes consistent with those used for commercial lending.
As an SBLC, the lender made only SBA-guaranteed loans; and therefore, did not
have a "tried and true" credit scoring process that could be relied upon for scoring
the SBA-backed loans. Further, as a non-depository financial institution, SBLCs
are allowed to sell the guaranteed portion of their SBA loans on the secondary
market to maintain liquidity. Therefore, lacking a credit scoring process for non­
SBA loans, coupled with the lender's ability to sell the SBA loans on the
secondary market, fostered an environment where the lender was able to make bad
loans and then profit from their sale on the secondary market. Absent assurance
that the lender's credit scoring process was prudent, the Agency should not have
permitted the lender to rely on credit scoring to underwrite its SBA loans. Instead,
SBA should have required the lender to perform a full cash flow and repayment
analysis on all of the loans it approved.

The high number of loan defaults indicates that the two lenders did not use
appropriate, prudent, and in the case of the one lender, generally acceptable credit
analysis processes. This was further substantiated when in 2007, one of the
lenders received a Cease and Desist Order from its Federal regulator for, among
other things, engaging in unsatisfactory credit administration and underwriting.
Had SBA established more stringent credit requirements for the Community
Express pilot, it may have been able to better control program risk. For example,
many of the credit factors used in the credit scoring methodology of the two most
active lenders are umelated to the business activity of borrowers, and therefore,
are not measures of creditworthiness. These factors include items such as whether
the principal owns his/her residence, length of time at location, and monthly gross
sales, which are meaningless without the businesses' monthly expenses. Further,
although SBA has taken enforcement action against one of the lenders, it has not
taken action against the second lender, and both continue to maintain their
delegated lending authority.
                                                                                                                        19


Interest Rates and Fees Charged for Community Express Loans Are
Comparable to the Rates Charged for Other SBA Loans

Under the SBA Express program, lenders can charge interest rates between 4.5
and 6.5 percent over the prime rate or LIBOR,6 depending on loan size. For all
other SBA loan programs, including the Community Express program, the interest
rates generally cannot exceed 2.75 percent over the prime rate or LIBOR, unless
the loan amount is $25,000 or less. Loans of this size may carry an interest rate of
up to 4.75 percent over the prime rate or LIBOR.

Our review of the loan portfolios of the 11 most active Community Express
lenders disclosed that the interest rates charged by these lenders for loans of
$25,000 or less were generally the same as the rates they charged for SBA Express
and other 7(a) loans. Specifically, a comparison of the interest rates ofloans made
by individual lenders on the same day showed no differences in the interest rates
charged among the various programs. The rates were also within the allowable
program limits. Our results seem to indicate that Community Express borrowers,
whom SBA concluded face unique problems, challenges, and risk in starting and
developing their businesses, are not receiving an additional interest rate benefit
under the Community Express program.

Community Express loan recipients generally were charged higher interest rates
by the more active lenders and lower interest rates by the less active lenders. We
noted that the two most active Community Express lenders, who were responsible
for 71 percent of the loans made under the program, focused on making loans of
$25,000 or less. Making these smaller loans allowed them to charge interest rates
that were at or near the limit permitted by SBA. Less active lenders tended to
provide lower interest rates and to make larger loans. Additionally, loan­
packaging fees charged for Community Express loans were in line with those the
lenders generally charged for other 7(a) loans, but lenders we contacted were
unable to justify the basis for their fees.

Loan packaging fees charged for Community Express loans also were in line with
those generally charged for other 7(a) loans. For example, the packaging fees
charged for the 130 sampled loans ranged from $250 to $956, which were similar
to the fees charged for other 7(a) loans. However lenders were unable to justify
the basis for their fees. We asked 7 of the 11 most active Community Express
lenders for which packaging fee information was available to provide formal
calculations supporting their fees. However, none of the seven were able to do so.
They explained that their fees varied, depending on cost components, such as


6   The London Inter Bank Offer Rate (LIBOR) is the interest rate that banks charge each other for very large, short­
    term loans.
                                                                                                        20


credit reports, administrative time used to review and approve the loan, processing
of the application, and the complexity of the loan itself.

Improvements Are Needed to Ensure that Technical Assistance Requirements
Are Adequately Assessed and that a Higher SBA Guaranty is Justified

Under the Community Express program, participating lenders are required to
ensure that an approved provider clearly identifies the technical assistance needs
of the borrower and develops and implements an appropriate plan. Further, the
lender must follow up to strongly encourage the borrower's completion of each
milestone in the technical assistance plan. Despite these requirements, we
determined that prior to October 2008, lenders had not consistently ensured that
borrowers completed the required technical assistance. In October 2008, when
SBA made borrower completion of the technical assistance a requirement for loan
disbursement, the percentage of lenders providing technical assistance
significantly increased. However, we found that the number of training courses
assessed for each borrower generally did not correspond to the borrower's level of
experience or age of the businesses. Additionally, lenders received higher
guaranty fees even though they did not incur additional costs for the technical
assistance.

Technical Assistance Completion Improved After October 2008, Although
Assessments Did Not Reflect Borrower Experience Levels

As shown in Table 5, a review of 99 loans disbursed prior to October 2008
disclosed that borrowers completed the required technical assistance or received
follow-up for only 35, or 35 percent of the loans. After technical assistance
became mandatory prior to loan disbursement, the percentage of borrowers
completing technical assistance increased. Specifically, borrowers associated with
24, or 77 percent, of the 31 sampled loans disbursed after September 2008,
completed technical assistance or experienced substantial follow-up by lenders.

                   Table 5. Lender Compliance with Technical Assistance Requirements


                                                                 Technical Assistance
       Review Period                  Number of Loans                Completed                Percent
 May 1999 to Oct. 2008                     99                            35                      35
 Oct. 2008 to June 2009                    31                            24                     77
           Totals                          130                           59                     45
Source: Auditor analysIs of lender oan tiles and mtervlews with borrowers and TA providers.



While technical assistance completion rates increased due to the October 2008
program changes, the amount and type of technical assistance provided did not
                                                                                                          21


always reflect borrower needs. Procedural Notice 5000-1013, Technical
Assistance Requirements under the Community Express Program, issued in
February 2007, states that the amount and type of technical assistance required by
a borrower depends on the maturity of the business and the principal's business
experience. However, our analysis of 130 loans identified an inverse relationship
between the age of the business or experience of the borrower, and the amount of
technical assistance identified as being needed. As shown in Tables 6 and 7, the
average number of courses assessed per borrower increased with the age of the
business and the principal's years of experience. These figures seem to indicate
that assessments made by the technical assistance providers did not adequately
reflect the technical assistance needed by borrowers.

              Table 6. Average Number of Courses Assessed Based on Borrower Experience

                                                       Number of Courses   Number of   Average Number of
 Length of Principals' Experience                         Assessed         Borrowers   Classes Per Borrower
 o to 24 months experience                                    91              41                2.2
 25 to 72 months experience                                   56              20                2.8
 73 + months experience                                      204              65                3.1
 Unknown                                                       9                4               2.3
:Source: Auditor com p utations based on data trom lender loan tiles.


                  Table 7. Average Number of Courses Assessed Based on Age of Business

                                                       Number of Courses   Number of   Average Number of
 Business Age                                             Assessed         Borrowers   Classes Per Borrower
 o to 24 months                                              189              73                2.6
 25 to 72 months                                                   92         32                2.9
 73 or more months                                                76          24                3.2
 Unknown                                                           3            1               3.0
:Source: Auditor computatIOns based on data trom lender loan tiles.



On average, borrowers with the least amount of experience were assessed as
needing fewer courses. For example:

      • 	 A start-up firm specializing in substance abuse education whose principal
          had no business experience was assessed as not needing technical
          assistance.

      • 	 Nine start-up concerns whose principals each had less than I year of
          business experience were each assessed as needing only one training
          course.

      • 	 Seven borrowers whose principals had operated their businesses for at least
          6 years and who each had at least 10 years of business experience were
          each assessed as needing from 5 to 8 courses.
                                                                                                                     22



Because the number of courses generally did not match the borrowers' experience
or age of the businesses, SBA should consider whether lenders need better
guidance for instructing providers how to assess borrower technical assistance
requirements. We noted that SBA has not defined what technical assistance
should consist of, and therefore, has no way to measure the quality of assistance
provided or its effectiveness. This may have contributed to the variances in
technical assistance that were noted by the audit.

According to SBA, lenders do not feel comfortable with the concept of providing
technical assistance, as this is outside their normal lending function. With the
exception of on-line training offered by one lender, all of the other lenders used
private providers or SBA partner organizations to provide the technical assistance.
Further, according to a senior SBA official, technical assistance is also outside the
normal business activity of OCA that oversees the program. This may explain
why SBA has not defined the components of technical assistance, or developed
procedures to measure the quality and effectiveness of the assistance provided.

Lenders Received Higher Guaranties than Were Justified

A major objective of the Community Express program is to combine technical and
financial assistance to maximize the success of small businesses. To achieve this
objective, SBA requires that lenders offer training and counseling to borrowers.
While borrowers are ultimately responsible for taking the required training,
lenders are strongly encouraged to follow-up with borrowers to ensure they
complete the technical assistance requirements. To offset some of the lender's
expenses associated with the technical assistance requirements, SBA provides a
guaranty of up to 75 percent for Community Express loans over $150,000 and up
to 85 percent for loans of$150,000 or less.

Of the 130 loans reviewed, we identified 72 for which lenders received higher
guaranties than were justified, either because technical assistance had not been
provided or the lenders had not followed up appropriately with borrowers to
encourage their completion of the technical assistance requirements. Of the 72
loans, 22 with 85-percent guaranties were purchased which resulted in $71,799 7
in unsupported costs. In February 2007 SBA established procedures to reduce the
guaranty purchase level to 50 percent on loans not meeting the technical assistance
requirements. However, it did not follow its procedures when purchasing 4 of the
22 loans that were approved after February 2007. Because the guaranty
percentage is directly related to the technical assistance requirement, SBA should


7   This amount constitutes 35 percent ofthe outstanding balance of $205,141 in total guaranties associated with the 22
    loans. The 22 loans each carried an 85-percent guaranty.
                                                                                                                    23


recover $18,960, which constitutes unsupported costs for the portion of the loan
guaranties in excess of 50 percent.

Of the remaining 50 loans that had not defaulted, 5 are paid in full, 15 were
approved prior to May 2007, leaving 30 that will need to be annotated for a
possible repair of $268, 190 in the event of default. The $268,190 represents the
amount in excess of the 50-percent guaranties. 8 A listing of the purchased and
current loans and the reasons for the guaranty repairs or loan annotations are
provided in Appendix V.

Finally, in addition to the 34 loans that require a repair or file annotation, we
identified 11 that were approved after October 2008, for which the technical
assistance was provided by an SBA partner or through SBA's on-line training.
Although current program guidance allows lenders to use other sources for
technical assistance and be reimbursed the higher guaranty, we believe that SBA
should revise program procedures to limit the guaranty to 50 percent whenever
technical assistance is provided on-line or by SBA partners.

SBA Established Appropriate Performance Measures But Did Not Evaluate
Program Success

Although the Community Express program has been a pilot since May 1999, SBA
did not establish measures to evaluate the performance of the program until FY
2008. In September 2008, SBA issued Procedural Notice 5000-1068, Extended
and Enhanced Community Pilot Program, which established factors that SBA
planned to use to evaluate the program's overall effectiveness and its implications
for the Agency's portfolio and subsidy rate. These factors, which we determined
were appropriate measures, included the:

       • 	 Number of loans processed;

       • 	 Number and percentage of loans processed where the applicant's principal
           office is located in a distressed community;

       • 	 Demographics compared to other 7(a) programs;

       • 	 Number of loans in rural areas;

       • 	 Number of loans to start-up businesses:



8   This amount constitutes 35 percent of the outstanding balance of $766,257 in total guaranties associated with the 30
     loans as these loans each carried an 85-percent guaranty.
                                                                                  24


   • 	 Number of lenders participating and distribution of loans among lenders;

   • 	 Delinquency, purchase, and loss rates compared to other SBA loan 

       products; 


   • 	 The Office of Credit Risk Management's portfolio analysis and projections
       based on data in the Loan Management and Accounting System; and

   • 	 Portfolio management credit scores compared to other 7(a) programs.

Despite establishing performance measures in 2008, SBA has not performed an
evaluation of the program. During the audit OCA management stated that a
detailed program evaluation would be premature because program changes
implemented in October 2008 have not been in place long enough to see
significant trends. Management further stated that OCA plans to conduct an
evaluation in 12 to 18 months after the implementation of program changes. We
made multiple requests for evidence that SBA has evaluated the success of the
Community Express program, but no response was received as of the report issue
date.

RECOMMENDATIONS

We recommend that the Associate Administrator for the OCA:

   1. 	 Not extend the program, in its current form, beyond the current pilot
        deadline of December 31,2010, which would result in $53 million in 7(a)
        subsidy costs that could be put to better use.

   2. 	 Evaluate the need for and viability of the Community Express loan program
        given that the objectives for New Market lending are being met by other
        7(a) loans programs and that one lender will be making most of the loans
        under the program going forward.

   3. 	 Repair $18,960 in guaranties on the 4 loans purchased above the 50-percent
        guaranty level for which technical assistance was not completed.

   4. 	 Annotate the loan files for the 30 current loans where technical assistance
        was not provided for a possible repair of $268,190 should the loans default.
                                                                                   25


If the program is retained, we recommend that the Associate Administrator:

   5. 	 Develop a plan for increasing lender participation that considers lender
        feedback on how best to incentivize lenders to participate in the program,
        which includes the removal of lender loan limits that were imposed in FY
        2009. Because SBA has not been able to attract a significant number of
        other bank lenders, it may want to consider combining the Community
        Express program with other programs that service the same market groups.

   6. 	 Develop guidance clarifying the appropriate uses of credit scoring and
        prohibiting the use of credit scores to establish loan size.

   7. 	 Take steps to reduce loan defaults that are increasing the cost of the 

        program, including implementing stricter credit standards aimed at 

        improving the quality of loans made by the most active lender. 


   8. 	 If program costs cannot be reduced, determine whether they should
        continue to be financed through the subsidy rate, which is projected to
        increase by $31.2 million in FY 2011, or passed onto the borrower through
        higher fees.

   9. 	 Revise program procedures to limit the guaranty to 50-percent on loans for
        which technical assistance is provided by SBA partners or SBA's online
        training.

   10. Provide criteria to lenders for assessing technical assistance needs of
       borrowers.

   11. Establish annual goals for measuring the success of the Community
       Express program and measure program accomplishments against these
       goals.

   12. Establish a process for periodically evaluating the cost/benefit of the
       program.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

On June 11, 2010, we provided OCA and the Office of Financial Assistance
(OFA) with the draft report for comment. On August 16, 2010, OCA and OF A
submitted a formal response, which is contained in its entirety in Appendix VI.
Management commented that the OIG conducted a thorough review and that the
                                                                                   26


report will provide the Agency with a valuable framework for evaluating the
Community Express program. Management also concurred with
recommendations 3 and 4, and agreed to act swiftly to address the remaining ten
recommendations related to terminating or changing the program. To provide
careful consideration of these recommendations, SBA advised the OIG that its
senior management team has already commenced extensive analysis of the report
and program data, and is undertaking a comprehensive assessment of the needs of
borrowers in underserved communities and the lenders who serve those
communities. They expect to have a well thought out plan for the Community
Express program by October 31, 2010.

The OIG considers the Agency's actions to be responsive to the report, and agrees
that careful deliberation of the audit results is needed to ensure that SBA acts
prudently and cost effectively in addressing the needs of underserved markets for
access to capital.

ACTIONS REQUIRED

Please provide your management decision for each recommendation on the
attached SBA forms 1824, Recommendation Action Sheet, within 30 days from
the date of this report. Your decision should identify the specific action( s) taken
or planned for each recommendation and the target date(s) for completion.

We appreciate the courtesies and cooperation of the Offices of Capital Access,
Financial Assistance, and Credit Risk Management. If you have any questions
concerning this report, please call me at (202) 205- [FOIA ex. 2]
                                                                                  27


APPENDIX I. AUDIT SCOPE AND METHODOLOGY

The objectives for the audit were to determine whether: (1) the Community
Express program has resulted in increases in the number and dollar amount of
loans provided to select New Market groups; while keeping credit risk as an
acceptable level; (2) small businesses receiving Community Express loans benefit
in terms of interest rates and fees as compared to other SBA loan programs, and if
lenders can adequately justify their fees; (3) technical assistance (TA) has been
provided by lenders to increase the potential for success for Community Express
borrowers; and (4) SBA has established the most appropriate measures by which
to evaluate program success.

To assess program results, we compared the volume, dollar value, and geographic
distribution of loans of $250,000 or less to New Market groups that were made by
the Community Express program to those made by other 7(a) loan programs
between May 1, 1999 and June 30,2009. We also compared the number ofloans
made to start-up businesses and the size of loans made under the Community
Express program to those made under other 7(a) loan programs during the same
period. Our comparative analyses were based on information in SBA's Loan
Accounting System. We also interviewed five lenders who had stopped
participating in the Community Express program to determine their reasons for
leaving the program, and discussed lender participation rates with SBA and the
National Association of Government Guaranteed Lenders.

To evaluate the risk of the program, we compared the 12-month Community
Express purchase and charge-off rates that were reported for October 2004 to June
2009 in SBA's Loan Accounting System to that of the other 7(a) programs. We
also compared the 12-month purchase and charge-off rates of the two most active
Community Express lenders who were responsible for 71 percent of the loan
volume to the rates charged to SBA's 7(a) portfolio averages. To determine
whether the purchase and charge-off rates were uniformly high among Community
Express lenders, we compared the rates for the two lenders with that of the other
Community Express lenders. We also reviewed SBA's risk ratings for the two
lenders and lender loan files, and interviewed lender personnel to determine if
lender underwriting practices increased credit risk. We evaluated SBA policies
and procedures for sufficient internal controls to protect against unnecessary losses
and fraud. To determine whether loans defaulted because borrowers received
smaller loans than requested, we interviewed selected borrowers.

Further, we obtained information from the Chief Financial Officer on the overall
subsidy rates for loans of $25,000 or less and the net cash flow for the Community
Express program and other 7(a) programs to determine how the cost of the
                                                                                 28


Community Express program would impact the overall subsidy rate for the 7(a)
program in FY 2010 and 2011.

To evaluate interest rates, we compared the average interest rates that each of the
11 most active lenders charged for their Community Express loans to the rates
they charged for their other 7(a) loans. We computed average interest rates based
on information reported in SBA's Loan Accounting System. We also compared
lender information on loan packaging fees for the Community Express program to
the fees they charged for other 7(a) and non-SBA loans, which was available for
only 7 of the 11 lenders. The loan packaging fees for Community Express loans
was obtained from SBA loan files, and the fees charged for other 7(a) loans was
obtained through interviews with personnel at the 11 Community Express lenders.

To determine whether borrowers received technical assistance, we reviewed a
sample of 99 loans that were disbursed between February 2005 and December
2008, and a sample of 31 loans disbursed from October 2008 (when program
changes went into effect) to June 2009. We reviewed the loans for evidence that
the borrower needs were assessed, action plans were developed to address the
needs, and the borrowers completed either the technical assistance or the lenders
followed up with the borrowers. To corroborate data in the loan files, we
interviewed 63 of the 130 borrowers we were able to reach, and 59 of 70 technical
assistance providers. We made on-site visits to one borrower and one TA
provider. In addition, we judgmentally sampled 10 purchased Community
Express loans to evaluate SBA's purchase review procedures. We requested
documentation from the applicable loan servicing center supporting the decision to
honor or not honor the loan guaranty.

Finally, to determine whether SBA established the most appropriate performance
measures for the program, we interviewed Office of Capital Access (OCA)
personnel, and reviewed the FY 2008 and 2009 Federal Government Performance
Reports. In addition, we reviewed selected monthly Portfolio Analysis Committee
reports to identify any analysis made by management regarding the Community
Express program. We conducted the audit between January 2009 and March 2010
in accordance with Government Auditing Standards prescribed by the Comptroller
General of the United States.
                                                                                                 29


APPENDIX II. LIST OF LOANS REVIEWED

                       SAMPLE 1                     SAMPLE 2                    SAMPLE 3
SAMPLE        LOAN         DISBURSED       LOAN        DISBURSED       LOAN         DISBURSED
NUMBER        NUMBER       AMOUNT          NUMBER      AMOUNT          NUMBER       AMOUNT
          1   2718015003   $      25,000   3043995010   $    10,000    3401615002   $       25 ,000
          2   8285074004   $       5,000   2453265001   $     5,000    3245965010   $       50,000
          3   2933085005   $      25,000   2900115005   $     5,000    3342215010   $        15,000
          4   2883715005   $      15,000   2981335002   $     7,500    3295865002   $       75,000
          5   3082995002   $      15,000   2739065006   $    12,500    3298145004   $       20,000
          6   2158635002   $      35,000   2704745009   $     5,000    3303635004   $         5,000
          7   6468524001   $       6,000   2968595005   $    10,000    3363445008   $       30,000
          8   2654865000   $      25,000   2727265010   $    10,000    3309535010   $        12,500
          9   2148715009   $      25,000   2656985005   $     5,000    3404095007   $       15, 000
         10   2370265006   $       5,000   2578255002   $    50,000    3321995000   $        10,000
         11   7638494003   $      10,000   1701675001   $    50,000    3301485003   $       50,000
         12   2340025003   $      10,000   2005085002   $    50,000    3273075000   $       50,000
         13   7322844005   $       5,000   3052775005   $    12,500    3348175001   $        17,000
         14   3020355003   $      20,000   1668125008   $    10,000    3339335010   $         7,500
         15   5592904000   $       5,000   1867615005   $    20,000    3359105008   $       20 ,000
         16   7385044009   $      10,000   2844325003   $    10,000    3294895009   $       75 ,000
         17   9228344000   $      10,000   2462935003   $     7,500    3325955007   $         5,000
         18   1807496000   $      15,000   2233035000   $    50,000    3254045007   $         7,500
         19   1292836006   $      10,000   2712686000   $     5,000    3268115005   $         5,000
         20   8290214003   $       5,000   2495605005   $    20,000    3344375005   $         5,000
         21   7562114008   $       5,000   3239755010   $    10,000    3274055007   $       50,000
         22   1528176006   $       5,000   2817155005   $    15,000    3410045010   $      100,000
         23   2590505008   $      20,000   1853505006   $    25,000    3331115009   $       35,000
         24   6457824002   $      10,000   2039535004   $    25,000    3329075000   $        12,500
         25   7973234003   $      10,000   1446295007   $   101 ,200   3243825010   $         7,500
         26   7719074008   $       5,000   3114775001   $    10,000    3299865010   $       25 ,000
         27   7550784002   $       5,000   1367876002   $    18,383    3260825001   $       35,000
         28   7825304009   $      10,000   2755706004   $    12,500    3327135001   $         7,500
         29   7937524010   $       5,000   1699925004   $    25,000    3262475007   $         7,500
         30   2062025002   $      10,000   3010235009   $     5,000    3335395009   $       25 ,000
         31   7352874004   $       5,000   3176215003   $    50,000
         32   7596384006   $      10,000   1797415008   $    50,000
         33   2550325008   $      35,000   1731875003   $    30,000
         34   2872555010   $      50,000   3115645010   $    15,000
         35   3075865000   $      25,000   2702366005   $    12,500
         36   2641755003   $      20,000   2661106000   $     5,000
         37   7841274002   $       5,000   2924045002   $     5,000
         38   8717094004   $       5,000   8932344010   $    48,800
         39   9023344007   $       5,000   3191245010   $    26,000
         40   2026586005   $      10,000   2775705005   $    15,000
         41   6782514007   $       5,000   2990485003   $    12,500
         42   2139266010   $      10,000   2148015000   $    50,000
         43   9155614007   $       5,000   1843705003   $    81 ,000
         44   7392164008   $      10,000   1273335007   $    18,000
         45   8862384004   $      10,000   2122155009   $    15,000
         46   9306134003   $      10,000   1653725008   $    25,000
         47   9025394004   $       5,000   2353036001   $    12,500
         48   7911914000   $       5,000   2551556005   $     7,500
         49   9187364009   $      15,000   2742485004   $    50,300
         50   1846406009   $       5,000   2042095004   $    50,000
                                                                                            30



APPENDIX III. NEW MARKET LOANS BY LOAN PROGRAM

       Data supporting Figure 1- Percentage of New Market Loans
               by 7(a) Program from FY 2000 to FY 2008

                                                      Total (excluding 

           Fiscal 
     SBA                             Community             Community
           Year        Express        Other 7(a)         Express)              Express
           2000          26%             73%                 99%                    1%
           2001          34%             64%                 98%                    2%
           2002          41%              55%                97%                    3%
           2003          55%              37%                92%                    8%
           2004          61%             28%                 89%                   11%
           2005          65%             21%                 86%                   14%
           2006          72%              14%                86%                   14%
           2007          70%              13%                83%                   17%
           2008          59%              19%                78%                   22%
           Totals        59%             29%                 88%                   12%
         :Source: Aue Itor computatIOn based on data trom :SJjA sLoan Accountmg :system.




Data supporting Figure 2 - Percentage of Dollars Disbursed to New Market 

        Groups by 7(a) Loan Program from FY 2000 to FY 2008 


                                                      Total (excluding 

           Fiscal 
     SBA 
                           Community 
           Community 

           Year 
      Express 
      Other 7(a)         Express) 
            Express 

            2000          12%             87%                99%                    1%
            2001          15%             83%                98%                   2%
            2002          18%             80%                97%                   3%
            2003         27%             69%                 96%                   4%
            2004          37%             59%                96%                   4%
            2005          46%            49%                 95%                   5%
            2006          54%             38%                92%                   8%
            2007          53%             37%                90%                   10%
            2008          42%            45%                 88%                   12%
           Totals         36%            58%                 94%                   6%
          ource: Aue Itor com putatlon based on data rom :SJjA sLoan Accountm g :S'ystem.
                                                                                           31


APPENDIX IV. 	 12-MONTH PURCHASE RATES AND CHARGE­
               OFF RATES BY 7(A) PROGRAM




                  12- MONTH PURCHASE RATES                12- MONTH CHARGE- OFF RATES
                           Preferred                                 Preferred
               Community    Lender      SBA      other   Community    Lender      SBA      other
                Express    Program     Express    7(a)    Express    Program     Express    7(a)
2002 3rd qtr      0.00%      2.53%      1.06%    2.53%       0.00%      0.24%     0.94%    0.39%
2002 4th qtr      0.21%      2.76%      1.38%    2.90%       0.17%      0.52%     1.20%    0.63%
2003 1st qtr      0.41%      2.97%      1.65%    3.20%       0.31%      0.87%     1.29%    0.83%
2003 2nd qtr      0.74%      3.01%      1.91%    3.24%       0.53%      1.12%     1.37%    1.01%
2003 3rd qtr      1.35%      3.03%      2.09%    3.18%       0.76%      1.31%     1.42%    1.16%
2003 4th qtr      1.62%      2.96%      2.16%    3.08%       0.97%      1.44%     1.37%    1.26%
2004 1st qtr      2.29%      2.70%      2.12%    2.92%       1.30%      1.43%     1.37%    1.37%
2004 2nd qtr      2.83%      2.43%      1.96%    2.80%       1.57%      1.33%     1.28%    1.39%
2004 3rd qtr      2.89%      2.23%      1.84%    2.53%       1.73%      1.08%     1.21%    1.34%
2004 4th qtr      3.20%      2.23%      1.70%    2.67%       1.97%      0.77%     1.11%    1.28%
2005 1st qtr      3.36%      2.20%      1.55%    2.77%       2.08%      0.47%     1.03%    1.20%
2005 2nd qtr      3.34%      2.11%      1.40%    2.80%       2.03%      0.32%     0.89%    1.08%
2005 3rd qtr      3.80%      2.00%      1.29%    2.97%       2.14%      0.24%     0.87%    1.08%
2005 4th qtr      3.81%      1.81%      1.28%    2.72%       2.12%      0.24%     0.89%    1.08%
2006 1st qtr      3.48%      1.70%      1.55%    2.56%       2.18%      0.27%     1.14%    1.20%
2006 2nd qtr      3.40%      1.72%      1.69%    2.64%       2.23%      0.38%     1.28%    1.29%
2006 3rd qtr      3.53%      1.77%      1.96%    2.73%       2.80%      0.58%     1.66%    1.68%
2006 4th qtr      3.90%      1.79%      2.26%    2.88%       3.62%      1.09%     2.17%    2.29%
2007 1st qtr      3.92%      1.78%      2.26%    2.81%       3.70%      1.51%     2.16%    2.46%
2007 2nd qtr      4.00%      1.70%      2.37%    2.69%       3.79%      1.55%     2.26%    2.53%
2007 3rd qtr      4.02%      1.58%      2.55%    2.51%       3.36%      1.48%     2.10%    2.32%
2007 4th qtr      4.23%      1.50%      2.65%    2.31%       2.99%      1.10%     1.87%    1.98%
2008 1st qtr      4.73%      1.65%      3.01%    2.63%       2.98%      0.71%     2.04%    1.91%
2008 2nd qtr      5.16%      1.93%      3.20%    3.24%       3.61%      0.65%     2.44%    2.23%
2008 3rd qtr      6.15%      2.34%      4.00%    3.95%       4.95%      0.69%     3.21%    2.95%
2008 4th qtr      6.62%      2.76%      5.11%    4.12%       6.33%      1.25%     4.64%    3.71%
2009 1st qtr      8.66%      3.18%      6.43%    3.47%       7.46%      1.65%     5.43%    3.64%
2009 2nd qtr      9.50%      4.05%      7.69%    3.72%       7.74%      1.80%     5.93%    3.87%
2009 3rd qtr     10.55%      5.11%      8.70%    4.07%       7.71%      2.00%     6.32%    4.01%
                                                                32


APPENDIX V.    LOANS REQUIRING REPAIR OR ANNOTATION

         LOAN NUMBER      AMOUNT          STATUS AT 6/30/2009
                          !Ii!>t), 1t)~        current
                          !lil!>,t)~{          current

                          $16,004              current

                          !Ii~4,H~U            current

                          $18,099              current

                          $Jt),J49             current

                          $23,151              current

                          !lil!>,9H9           current

                          !Ii~U,1~U            current

                          $ 4,429              current

                          $20,468              current

                          $13,554              current

         [FOIA ex. 4]     $   8,7~t)           current

                          !li41,1 {!>          current

                          $ 4,513              current

                          !Ii1 1,t)J4          current
                          $22,069              current

                          $1J,~18              current

                          $13,987              current

                          $47,158              current
                          !li4t),~{~           current
                          !lit)H,H~(           current

                          $47,657              current

                          !Ii~4,~H!>           current

                          $14,879              current

                          !li15,UUU            current

                          $49,750              current
                           !Ii~,((~            current

                           !Ii~,H{4            current

                          $56,409             delmquent

              lotal       $7t)t),~57           JUloans
                                                       33



LOAN NUMBER    AMOUNT            STATUS AT 6/30/2009
                !Ii1H,;nS;S          IIqUlaatlon
                !Ii {,:'::4b         IIqUlaatlon

                !Ii 8,453            liquidation

               !li17,026             liquidation
               !li12,035             liquidation
               !lill,77l             IIqUlaatlon
               !lil;S,:'::H{         IIqUlaatlon

               !li19,OO7             liquidation
               !Ii 1,HbU             IIqUlaatlon
               !Ii 4,928             liquidation
[FOIA ex. 4]
               !Ii 2,;SHH            IIqUlaatlon

               !Ii 6,929             liquidation
               !Ii 4,H25            chargea ott
               !Ii ;S,HOO           chargea ott
               !Ii;SU, {l 0         cnargee ott

               !Ii 4,851            charged off

               !Ii     l;Sb         cnargee ott
               !Ii 9,830            chargea off
               !Ii 4,4HU            chargee ott

               $ 4,623              charged off
               !Ii H,:'::{:'::      chargee ott
               !lilU,:'::4l         cnargee ott
   Total       !li205,141             22 loans
                                                                                                      34


Appendix VI. Management Comments




                        u.s. Small Business Administration
                        Washington, D.C. 20416

              . August 16; 2Q1O


TO:             Debra S. Ritt
                Assistant Inspector General for Auditing

FROM: 	         Eric R. Zarnikow                        [FOIA ex. 6]
                Associate Administrator
                Office of Capital Access

                 G:adyB. Hedgespeth [FOIA ex. 6] 

                DIrector 

                'Office of Financial, ASsistapi;e 


SUBJECT: 	      Draft Report on the Assessment ofthe Community Express Pilot Loan
                Program (Project No. 9002)



      Thank you for the opportunity to comment on the Draft Audit Report on the Assessment
      of the Community Express Pilot Loan Program.

      As you know, the Agency requested this audit to assist us in determining whether the
      program is properly structured to help ensure success in providing access to capital to
      underserved markets and to minimize the risk of fraud, waste, and abuse. In addition, we
      requested this audit to help us consider the effectiveness of the program chaIiges
      implemented in October 2008. The Office of the Inspector General (OIG) conducted a
      thorough review over the span of 14 months. We appreciate OIG's efforts and believe
      this report will provide us with a valuable framework for evaluating the Community
      Express Pilot Loan Pro gram..

      The results of the report indicate the following about Community Express:
          • 	 Many of the objectives for New Market lending are being met by other 7(a) loan
              programs;
          • 	 The high cost of the program is expected to significantly increase the 7(a) subsidy
              rate in FYs 2010 and 2011;
          • 	 Program participation is concentrated in a very few, [ForA ex. 4, 81 lenders that may
              have increased the risk of the program and contributed to the higher costs;
                                                                                                 35



"




        • 	 Borrowers receive no interest rate or fee benefit in this program; and
        • 	 Lenders are not consistently ensuring that borrowers receive adequate technical
            assistance and, therefore, the higher guaranty percentage is not justified.

    The central recommendation of the OIG draft report is that SBA not extend the
    Community Express Pilot Loan Program in its current form. This recommendation is
    based, in part, on DIG's finding that the Agency has not been able to attract a sufficient
    number oflenders to participate in the program. Even after significant changes were
    implemented in 2008, only 24 new lenders participated in the program, collectively
    making 47 loans. Additionally, OIG found that the costs of the Community Express pilot
    program are significantly higher than other 7(a) loan programs, yet they continue to be
    borne by all 7(a) lenders and borrowers. DIG also reported that borrowers receive no
    interest rate benefit under this pilot, as they were generally charged the same interest
    rates in this program as in other 7(a) programs. Finally, the report concluded that
    technical assistance remains a significant problem in Community Express. While a
    higher percentage of borrowers received technical assistance after the October 2008
    program changes were implemented, the amount and type of technical assistance
    provided did not always match the borrower's needs.

    The Agency needs time to carefully consider this report and its central recommendation
    to discontinue the Community Express pilot in its current form. SBA has an obligation to
    prudently meet the needs ofunderserved markets to have access to capital.
    Discontinuation of this program would potentially have a serious impact on various SBA
    stakeholders, including these same underserved communities that have been
    disproportionately affected by the recent recession. Also potentially affected are smaller
    loan borrowers who don't always have ready access to capital. The Agency wants to
    provide a well thought out response given the importance of this audit and the audit
    recommendations. Out of the 12 recommendations in the audit report, 10 stem from the
    recommendation to not extend or substantially change the pilot. This is a decision that
    requires careful deliberation. SBA's senior management team has already commenced
    extensive analysis of DIG's report and of the Agency's performance data for the
    Community Express pilot. It likewise is undertaking a comprehensive assessment of the
    needs of borrowers in underserved communities and the lenders who serve those
    communities. Once this work is completed, the Agency will act swiftly to take steps to
    address the major recommendations of this audit.

    With that in mind, the Agency is targeting an October 31, 2010 response date for
    recommendations 1,2 and 5-12.

    As to recommendations 3 and 4, our response is provided below:

       • 	 Repair $16,116 in guaranties on the 4 loans purchased above the 50 percent
           guaranty levelforwhich technical assistance was not completed.
              o 	 SBA is reviewing the four loans identified by the DIG for potential repair.




                                                 2
                                                                                                  36



.'



        • 	 Annotate the loan files for the 45 current loans where technical assistance was
            not provided for a possible repair of $324,156 should the loans default.
                o 	 SBA will make an annotation to the 45 loan files to look at possible repair
                    should the loan default.

     Thank you, again, for completing this assessment of the Community Express Pilot Loan
     Program and for providing us with valuable feedback.




                                                  3
